No.
IN THE SUPREME COURT OF THE UNITED STATES
TONY GORDON. PETITIONER
- against UNITED STATES OF AMERICA, RESPONDENT
MOTION TO PROCEED IN FORMA PAUPERIS
The petitioner, Tony Gordon, requests leave to file the annexed Petition for a
writ of Certiorari to the United States Court of Appeals for the Ninth Circuit without
prepayment of costs and to proceed in forma pauperis pursuant to Rule 39. Undersigned
counsel was assigned to represent Petitioner pursuant to the Criminal Justice Act, 18
U.S.C. § 3006A, in the United States Court of Appeals for the Ninth Circuit because
Petitioner was indigent and incarcerated. Petitioner has remained both incarcerated
and, to the best of counsel’s knowledge, indigent since then to this day.
August 19, 2020

_s/ Zoë Dolan____________
P.O. Box 32044
Los Angeles, CA 90032
(347) 301-5180
zdolan@gmail.com
Counsel for Petitioner

